     Department of Homeland Security

     ��������������������������


  Annual Review of the United States Coast Guard’s 

          Mission Performance (FY 2012) 





OIG-13-122                             September 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                     SEP 17 2013


MEMORANDUM FOR: 	            Rear Admiral Stephen P. Metruck
                             Assistant Commandant for Resources and
                             Chief Financial Officer
                             United States Coast Guard

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Annual Review of the United States Coast Guard’s Mission
                             Performance (FY 2012)

Attached for your information is our final report, Annual Review of the United States
Coast Guard’s Mission Performance (FY 2012). We incorporated the technical
comments from the United States Coast Guard in the final report, as appropriate. The
report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                          OFFTCF. OF INSPECTOR GENERAL
                                                Dcpamnent of H omel and Security



   Table of Contents

    Executive Summary .............................................. ,................................................. ............ 1

    Background ........................................................................................................................ 2

    Results of Review ................................................................................................................ 3

              Resource Hours for Non-Homeland Security and Ho meland Security M issions .... 4
              The USCG's Mission Performance .......................................................................... 6
              FY 2013 Budget Info rmation .................................................................................. 7
              M anagement Comm ents an d OIG Analysis ............................................................ 7


   Appendixes

              Appendix A:           Objectives, Scope, and Methodology ............................................. 8
              Appendix B:           Management Comments to the Draft: Report .............................. 10
              Appendix C:           Non-Homeland Security Missions ................................................. 11
              Appendix D:           Homeland Security M issions......................................................... 23
              Appendix E:           FY 2012 Performance Measure Summary .................................... 34
              Appendix F:           M ajor Cont ributors to This Report ............................................... 35
              AppendixG:            Report Distri but ion ....................................................................... 36


   Abbreviations

              DHS                   Department of Homeland Sec urity
              FY                    fiscal yea r
              GAO                   Government Accountability Office
              MTSA                  Maritime Transportation Security Act
              OIG                   Office of Inspector General
              OM B                  Office of Management and Budget
              SPD                   Strategic Planning Direction
              USCG                  United States Coast Guard




www.olg.dhs.gov                                                                                                                 OIG-13-122
                      ...,..
                   • «.- .i@
                               '
                                   OFFICF. OF INSPECTOR GRJ'\F.RAL
                                     Dcpamnem of Homeland Security


    Executive Summary

    This report presents our annual review of the United States Coast Guard's (USCG) mission
    performance, as required by the Homeland Security Act of 2002. The act defines the USCG's
    l l statutory missions as either non-homeland security missions (marine sa fety, marine
    environmental protection, search and rescue, aids-to-navigation, living marine resources,
    and ice operations) or homeland security missions (ports, waterways, and coastal security;
    drug interdiction; migrant interdiction; defense readiness; and other law enforcement). The
    act also prohibits the Secretary of Homeland Security from substantially reducing any of the
    USCG's missions after its transfer to the Department of Homeland Security {DHS), except as
    specified in subsequent acts.

    The objective of this review was to determine the extent to which the USCG Is maintaining
    Its historical level of effort on non-homeland security missions. To address our objective,
    we reviewed the resource hours the USCG used to perform its various missions. We also
    reviewed the USCG's performance measures and results for each non-hom eland security
    and homeland security mission. We did not verify the accuracy of the USCG-provided data.

   According to the USCG's data, the gap between resource hours for homeland secu rity
   versus non-homeland security missions has narrowed from approximately 14 percent in
   fiscal year 2007 to approximately 4 percent in fiscal year 2012 (52 percent of resource
   hours for homeland security missions versus 48 percent for non-homeland security
   missions).

   The USCG reported t hat it met or exceeded 11 of 23 summ ary performance measure
   t argets in fiscal year 2012. This includes 9 of 12 non-homeland security performance
   measures and 2 of 11 homeland security perfo rmance measure targets. In fisca l year
   2012, the USCG funded nearly the same percentage of non-homeland security missions
   as homeland security missions

   This report contains no recommendations.




www.olg.dh~.gov                                  1                                    OIG-13-122
                                   OFFICE OF INSPECTOR GENERA.L
                                       Department of llomeland Security



    Background
   Section 888 of the Homeland Security Act of 2002, Public law 107-296, dated
   November 25, 2002, directs the DHS Office of Inspector General (OIG) to conduct an
   annual review that assesses the performance of all USCG missions, with an emphasis on
   non-homeland security missions. The act defines the USCG's 11 statutory missions as
   either non-homeland security missions or homeland security missions, and prohibits the
   Secretary of Homeland Security from substantially or significantly reducing any of the
   USCG's missions or its capability to perform those missions. Table 1 depicts the USCG's
   11 statutory missions and the alignment ofthose missions with DHS programs.

     Table 1: Alignment of OtiS Programs With Statutory Non-Homeland Security and
     Homeland Security Missions

     Non-Homeland Security Missions                  Alignment With DHS Programs
   1-----·
         L    Living Marine Resources                Maritime Law Enforcement
           -                                                                   .
         2. Marine Saff!ty                           Maritime l'revention
             -                                       Maritime Response
                                                                               -
         3. Marine Environmental Protection
                                                     Maritime Prevention
         4. Search and    R~scue                     Maritime       R~sponsc


         5. Aids-to-Navigation                       Marine Transportation System Man.:lge-ment
                                                         ........
         6. Ice Operations                          ! Marine Transportation System Management
     Homeland Security Missions                      Alignment With DHS Programs

         1. Ports, Waterways, and Coastal            Maritime Security Dllerations
            Security                                 Maritime Prevention
         2.   IJrug Interdiction                     Maritime Law Enforcement
                                    - --·                                                ---··· -
         3. Migrant Interdiction                     Maritime Law E11forcerne nt
    - --4.    Defense Reacti ne~~                    Defense Ope rations

         5. Other L~w Enforcement                    Maritime Law [nforcernent
                               ..
   Source; DHS Q!G based on USL<,-provldeo dola .

    The USCG uses resource hours-generally, the number of flight hours (for aircraft) and
    underway hours (for boats and cutters) used to carry out a specific mission-to
    determine the amount of tirne expended on each of its non-homeland security and
    homeland security missions. We compared the total number of resource hours


www.oig.dhs.ga•J                                     2                                              OIG-13-122
                             OFFICE OF INSPECTOR GENJ:RAL
                                 Department ofHmneland Security


    reported by the USCG from a baseline of pre-September 11, 2001, data through fiscal
    year (FY) 2012. The USCG-calculated baseline is an annual average of resource hours
    based on eight FY quarters preceding September 11, 2001. We did not verify the
    resource hour data reported by the USCG, nor did we validate whether the USCG
    accurately classified resource hours used for each mission. We assessed total resource
    hours for the 11 individual missions in order to identify the changes in each.

    The USCG completes a Strategic Planning Direction (SPD) for each fiscal ye<~r. This
    document provides strategic guidance for aligning frontline activities with overarching
    priorities. According to the SPD, the demand for USCG services will continue to increase
    as maritime activity increases. According to the USCG, resource decisions in the FY 2013
    SPD reflect careful tradeoffs among future capability and current services.

    The USCG establishes targets based on the Office of Management and Budget's (OMB)
    FY 2008 Program Assessment Rating Tool Guidance, which states that targets should be
    "ambitious and achievable," and built off a reliable baseline. USCG personnel said they
    are aiming for an ambitious and achievable target in accordance with this OMB
    guidance, which promotes continued improvements, and therefore not every target
    might be achieved every year.


    Results of Review

    Our review of USCG-provided data indicated that in FY 2012, the USCG dedicated 3.8
    percent more resource hours to homeland security missions than non-homeland
    security missions. FY 2012 homeland security mission resource hours totaled 351,567,
    while non-homeland security mission resource hours totaled 325,360. FY 2012
    homeland security mission resource hours decreased by approximately 1 percent from
    FY 2011 and remained approximately 89 percent above the baseline. Non-homeland
    security mission resource hours decreased by approximately 1 percent from FY 2011
    and were approximately 9 percent above the baseline. The total number of resource
    hours for all missions has continued to decline since FY 2005. The USCG reported that it
    met or exceeded 11 of 23 summary performance measures in FY 2012. This includes 9
    of 12 non-homeland security performance measures and 2 of 11 homeland security
    performance measures. In FY 2012, the USCG used nearly the same percentage of its
    funding for non-homeland security missions (approximately 48 percent) as for
    homeland security missions (approximately 52 percent).




www.oip,.dhs.p,ov                               3                                     OIG 13-122
                                      OFFICE OF INSPECTOR GENERAL
                                        Department of Homelund Security

            Resource Hours for Non-Homeland Security and Homeland Security Missions

            Since 2007(except in 2010), the USCG has dedicated more resource hours to
            homeland security missions, as illustrated in the following chart.

     Chart 1: Resource Hours- All Missions

                                      Resource Hours - All Missions
                               OHomeland Security Missions       ONon-Homeland Security Missions

             100%                                            ·-·- ,....-- ......... ,....--         -      .... ··-·


              90%      -           --                                      - -...              --
                                                                                              ..                              -
              80%      -           --   43·~·;
                                                   4~%
                                                          - - 44~) -···-                       -
                                                                                              ..           ··-               1-
                                                                                     SO%            48%                48%

     ~
     ~
              70%      -    52%    --                                                         1--                            1-
     :::>


                                        -
     0
     J:       60%      -                                                                                                     1-
     (J)
     ~
     :::>
                                                   -                f..-
                                                                                                    -                  f..- -
     0        50%      -
     "'
     (J)
     0::
              40%      -    f..-                                           --                                                 -
              30%      -           - - 57%
                                                   55%              56%
                                                                           - -
                                                                                                    52%
                                                                                                           --
                                                                                                                       52%
                                                                                                                              -
                                                                                     SO%
              20%      -    ~8%
                                   --                                                                                         -

              10%      -           --                                      --                                                 -
                  0%                                      --·-
                           Baseline     2007       2008             2009             2010           1011               20i2
                            (2000)
                                                                 Fiscal Year



    Source: OHS OIG based on USCG-provided data.


            As illustrated in table 2, the total number of resource hours the USCG dedicates
            to its specific statutory missions continues to decline. In FY 2012, the total
            USCG·reported resource hours dropped to 676,927, which is a decline of
            approximately 6 percent compared with 717,992 hours in FY 2009.



www.oig.dhs.gov                                          4                                                              OIG-13·122
                                                    OFFICE OF INSPECfOR GENERAL
                                                       Department of Homeland Security


    Table 2: FY 2012 Coast Guard Resource Hours

                                                          FY 20<!,9                     FYZOlO                     FY1011                         FY201Z -~
                                                                                                                                                          " of
                                                                  ""'
                                                                  r otol
                                                                 MIMio•
                                                                                                " "'
                                                                                               Total
                                                                                               Mission
                                                                                                                               ""'
                                                                                                                               Tatal
                                                                                                                             Mission
                                                                                                                                                          Total
                                                                                                                                                         Mill ion
                    Missions                         Hours:      Hourr.             Hours      Hours           Hours          HOUri           Hour$      Mours




    Non...Homeland Sewritv



    LW~n,~ Mar'.ne    R&:Jurt:e":o                    94, 1711        Ulll          93.470       U.:>!'         93.616          u.n.           94.319      13.9"


    M~trine ~ftrl·t                                   52,579           Hll          5~.828        8-ll(         64,210           9.4"          63617        9.4'5



    M3rintt Environml!nYI        Prot~ction            2.949          0.4'1         29.03~        4.1%           4,682           0.7'JI         J 091       0.5%
                                                '

    Sfi:,.,Ch a nd RI:!MUQ                            .SA.607          H.2..        (>4,213       9.1%          55,!>311         8.2'10        ~8. 770      8.7%



    AldJo--tO·Nc.vit<J lil>n                         100,!)0.1    14.1'"            9~.168 !     13.4" !
                                                                                                           I
                                                                                                                98..619 '       14.~"     I    97.960      H.S'Ji


    tctOp~liur.li                                      R,OU            1.2'10       ll,63S                      10,747           1.~'-"         7,VR        1m!




                                                                                                                               - -
                                                                                                  1.6"


                                     S.btotal        J l7,250     ...,.         JS2.517
                                                                                                ..,"",
                                                                                                           I

                                                                                                               128,00!                        ns.Jw
    Honooland Sealrily


    Pom. Wt:~tcrw>Jys, C?astal Sf'!curicy            18 1,264     2~.2!'        157,427          22.2~         L~S.S69      ..... P·~         150 G9'J     21.3'JI


    Dr1,11 .ln'"'dk tion                              80, 56:1    11.2%             6 1,307       9.5%          73,4~ 1         !O.!_lO        8SOM        ll.G%

                                                I
    M l.l'ltlnt lnt~rdirlCon                          76,100          l D.G%        7G, 84~      10.8!1. '      72,213          10 .~          6~.Q LR     10.2~~
                                      -···                                                                                             '.l
                                                ;                                                          •
    oc.rcns.c: RNdioess                               S6,1lM
                                                                       '·"'         47,030        &.6"          41,414           6 1"          34 ·&44      ~- 1.~



    OlhQi Law cntorccment                              &,68G          0.911           8, 70R      Ll'JO:        12.~79           1.80'         12 ll7       1.8'1


                                     Subtotal        400, 742     ~"'           357_320          50.3%         3SS,S86          W.CM          151,567      w•
    To tat•                                          717,192     1110.11!1
                                                                                ..
                                                                                    709)l37
                                                                                               ·-
   Source: OHS OIG based on USCG-prov1dcd data. (•indiVIdual totals may have b•en rounded to the nearest
   tenth.)
                                                                                                           !   683JS94         lGO.O!'        676,927     WO.!M




www.olg.dhs.gov                                                                 5                                                                  OIG-13-122
                   ~
                   V OFFICE OF INSPECTOR GENERAL
                                    D eportment of H omeland Security


           The percentages of total resource hours by statutory mission areas from FY 2009
           through FY 2012 are illustrated in chart 2.

           Chart 2:                of Total Resource Hours           Fiscal Year

                                Defense Re~dln"'"




                          Other law Enforcement




                           lll"gal Drug Interdiction

                           Living M~ri n e Re<ources

                  Marine Environmental Protection

                                      Ice Opera lions

                                Aids-to-Navigation

                                                                                                   C FY09


                                Search and Rescue

                                                                5%    10%    15%      20%        25%    30%
                                             Percentage of Total Resource Hours by Fiscal Year

           Source: DHS OIG based on                     d•t•.

           Resource hours for non-homeland security missions are summarized in
           appendix C, and homeland security missions are summarized in appendix D.

           The USCG's Mission Performance

           We based the performance portion of our review on the USCG'S December 2012
           internal report tit led United States Coast Guard Fiscal Year 2012 Performance
           Report, as well as previous USCG performance reports and OIG reports. Because
           USCG performance reports are interna l documents, they contain addit ional
           management and break-o ut measures that we did not include in our report. This
           report includes those mea sures th at the USCG considers summary measures. In


www.oig.dhs.gov                                         6                                         OIG-13-122
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           FY 2012, the USCG used the same 23 summary performance measures as they
           had in FY 2011.

           Non-homeland security performance measures and results are includ ed in
           appendix C, and homeland security measures and results are in appendix D.
           Appendix E contains a summary of the USCG's FY 2012 performance measures
           for its 11 missions.

           FY 2013 Budget Information

           In FY 2012, the USCG budgeted slight ly more of its funding for non-homeland
           security missions (approximately 52 percent) as homeland security missions
           (approximately 48 percent). Based on the USCG's FY 2013 budget, t he historical
           funding gap between non -homeland security and homeland security missions is
           expected to remain narrow. For FY 2013, the USCG budgeted approximately 50
           percent of its mission resources for non-homeland security mission s and
           approximately 50 percent for homeland security missions. The largest
           percentage of the USCG's mission resources will continue to be dedicat ed to its
           ports, waterways, and coastal security mission, which is projected to account for
           approximately 21 percent of the budget in FY 2013.

           Management Comments and OIG Analysis

           The USCG provided t echnical comments t hat have been incorporated Into the
           final report.




www.oig.dhs.gov                                7                                      OIG-13-122
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology

   The DHS OIG was established by the Homeland Security Act of 2002 (Public Law 107-
   296) by amendment to the Inspector General Act of 1978. This is one of a series of
   audit, inspection, and special reports prepared as part of our oversight responsibilities
   to promote economy, efficiency, and effectiveness within the Department.

   Section 888(f)(1) of the Homeland Security Act of 2002 directs the Inspector General to
   conduct an annual assessment ofthe USCG's performance of all its missions, with a
   particular emphasis on non-homeland security missions. The objective oft his review
   was to determine the extent to which the USCG is maintaining its historical level of
   effort on non-homeland security missions.

   We reviewed the following Government Accountability Office (GAO) reports and
   testimonies:

       •   GA0-12-741, Legacy Vessels' Declining Conditions Reinforce Need for More
           Realistic Operational Targets (reissued on August 30, 2012]
       •   GA0-12-751R, Observations on the Coast Guard's and the Department of
           Homeland Security's Fleet Studies, May 2012
       •   GA0·12·934T, Mission Performance Challenged by tile Declining Condition and
           Rising Costs of its Legacy Vessel Fleet, September 2012

   We analyzed the total number of resource hours reported by the USCG prior to
   September 11, 2001, through FY 2012. We did not attempt to verify the resource hour
   data, nor did we attempt to validate whether the USCG had accurately categorized such
   data. We assessed total resource hours for the USCG's 11 individual missions to identify
   the changes in each.

   We analyzed performance measures and targets to determine whether the measures
   for each ofthe USCG's missions had been accomplished. We obtained information on
   performance from the USCG's internal report, United States Coast Guard Fiscal Year
   2012 Performance Report. In addition, we reviewed our Annual Review of the United
   States Coast Guard's Mission Performance (FY 2011), dated September 2012, for prior
   performance measure data. We obtained budget information from DHS' Budget-in-Brief
   for FY 2012 through FY 2014.




www.oig.dhs.gov                                 8                                       OIG-13·122
                            O.FHCE OF INSPECTOR GENERAL
                                Department of !lome!and Security

   We conducted this review between April 2013 and June 2013 under the authority of the
   Inspector General Act of 1978, as amended, and according to the Quality Standards for
   Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               9                                      OIG·13·122
                  •          OFFICE Of INSPECTOR GENERAL
                      ~.~       Department of Homeland Security


    Appendix B
    Management Comments to the Draft Report

    While the USCG did not provide a formal response, it did provide technical comments
    that have been incorporated into the final report.




www.olg.dhs.gov                              10                                     OIG·13·122
                      •          OFH C.I£ OF INSPECTOR G:ENF.R AL
                      , ~. ~       Oeparuncnt of l lomeland Security



    Appendix C

    Non-Homeland Security Missions

   The USCG's FY 2012 non-homeland security mission resource hours totaled 325,360, a
   decrease of approximately 1 percent from FY 2011. However, the FY 20121evel remains
   at approximately 9 percent above baseline levels. The following graph illustrates the
   trend in non-homeland security mission resource hours since 2007 compared with the
   baseline period.



                                 Non- Homeland Security Resource Hours



            300,000
      ~
      & 250,000
     ::t:
      ~
      .._ 200,000
      ::J

      ~     150.000

            100,000

             50,000

                 0                                                        ...,
                                                        ....
                                                        §                 s...
                                                   Fiscal Year

   Source: DHS OIG based on USCG·providcd dota .

   In FY 2012, the USCG reported that it m et or exceeded 9 of 12 summary performance
   measures for its six non-homeland security missions, the same number they had met in
   FY 2011. The resource hours and summary performance measures and results for each
   non-homeland security mission are discussed below.

   Uving Marine       Re~urces


   living marine resources law enforcement is an obligation under the Magnuson-Stevens
   Fishery Conservation and Management Act, the Endangered Species Act, and seve ral
   other laws for the protection of marine resources. Its core responsibility is to provide

www.oig.dhs.gov                                    11                                 OIG-13-122
                               O.FFICF. OF INSPECTOR Gl:NERAT.
                                    Dcp3Itmcnt of Homeland Security


   effect ive an d professional enforcement to advance national goals for the conservation,
   management, and recovery of living marine resources, marine protect ed species, and
   national marine sanctuaries and monuments. This includes enforcement of living
   marine resource regulations and other activities that strengthen both domestic and
   i nternational living marine resources regimes.

   Resource Hours: FY 2012 resource hours for living marine resources tot aled 94,379.
   This is an increase of 0.8 percent from FY 2011, and is higher than t he baseline by 3.4
   percent.


                              living Marine Resources Hours
           120,000

           100,000
      t!
      :>
      0
      %    80,000
      Ql
      I!
      ..
      :>
      0
      Ql
      a:
            60,000

            40,000

            20,000

                  0
                      ..."'     N          N         ....
                                           ~
                                0
                      ~
                      !!.
                                0
                                 ....                8
                      :;·                            "'
                      "'                   Fiscal Year

   Source: DHS OIG based on USCG-provided data.

   Performance Measures and Results: The USCG uses the percentage of fishing vessels
   observed at sea complying with domestic regulations as a measure of its Impact on
   enforcement of U.S. fisheries and prot ect ed species regulations. The measure reflects
   t he percentage of USCG boardings at sea where no significant v iolations of domest ic
   living marine resources regulations were detected. As shown in t he following chart, the
   USCG reported that it met its single living marine resources performance measure in FY
   2012.




www.olg.dhs.gov                                 12                                      OIG-13-122
                                        OFFICE OF l~SPF.CTOR GENERAL
                                             D epartment of Homeland Security


                                             living Marine Resourtes
                              Performance Measure- Fishing Regulation Compliance Ra te

          FV 2007             FV 2008    FY 2009          FV 2010         FY 2011       FV 2012   FY 2012
             Actual           Actual      Actual           Actual          Actual       Tarat     Actual
                 96.2%        95.3%          96.7%        97.2!1(.         97 .4%        96~      98.3%
                  X              X              X            ~                   ..;'               -,/
        Not Met    Not Met      Not Met        Me t                          Mel                   M~t
     Source: DHS OIG based on USCG-provrded data .

     Marine Safety

     The focus of the USCG's marine safet y mission is the prevent ion of deaths, injuri es, and
     property loss. Marine safety responsibilities Include ensuring t he safe and
     enviro nmentally sound op era t ion of millions of recreational vessels and tho usands of
     u.s. flagged comm ercial vessels. The USCG develops and enforce s Federa l marine safety
     regulations, certifi es and provides credentials to more than 218,000 mariners,
     investigates commercial marine casualties and shares its findings, and conducts
     compulsory inspections as well as voluntary sa fety eKams.

     Resource Hours: The USCG d id not report hours for t his mission prior to 2005. FV 2012
     resource hours for marine safety totaled 63,632, a decrease of approximately 1 percent
     from FY 20 11.


                                        Marine Safety Resource Hours
                   70,000

                   60,000
       ...::J"'
        0          50,000
       :I:
       4J          40,000
       ...::Ju
       .."'
       0           30,000

      "'           20,000

                   10,()()0


                         0
                                         ...
                                f
                                ~
                                ..:r
                                         0
                                         ....
                                         0
                                                     ..
                                                     N

                                                     8
                                                     Fisca l Year
                                                                     N

                                                                     §

     Source: DHS OtG based on USCG provided data. (' No       b~sc lin, ,;,t.)


WW\\•.oits:.dhs.r;ov                                       13                                       OIG-13-122
                     •            . OFFICE OF INSPECTOR GENERAL
                         =•.,;;        Department of H omeland Security


   Performance Measures and Results: The USCG repo rted that it met three of four
   summary performance measures related to marine safety in FY 2012. Federal
   regu lations require the person in charge of a commercial U.S. flagged vessel to notify
   t he USCG of any loss of life or injury requiri ng profession al medical treatm ent beyond
   first aid. The USCG uses deaths and injuries as a measure of commercial mariner and
   passenger safety and t he five-year average number of deaths and injuries as an
   indicator of long-term performance t rends. In FY 2012, the USCG met its t arget for
   commercial mariner deaths and injuries but did not meet the target for passenger
   deaths and injuries, as shown below. According t o t he USCG, failing to meet the
   performance t arget is primarily attributable to growth in the cruise line Industry and
   changing regulations.

                                                Ma rine Safety
        Performance Measure - Five-Ye ar Ave rage Number of Commercial Mari ner Deaths and
                                               Injuries

       FV 2007      FY 2008          FY 2009       FV 2010        FY 2011         FY 2012        FV 2012
       Actual        Actual           Actual        Actual         Actual          Tar&et         Actual
        526              498           502           483             450           <455            4 26
                          '-/           'I             ..J            ..,f                           ..j
        NIA'             Met           Met           Met             Met                           Met
   SooJrce: DHS OIG based on USCG-provided dara.

                                                M arine Safety
                           Perfo rmance M easure- Five-Year Average Number of
                                  Commercial Passe nger Deaths and Inju ries

       FY 2007      FV 2008          FY 2009       FV 2010        FY 2011         FY 2012        FYZOU
        Actual       Actual           Actual       Actual          Actual          ra,..et        Actu•l
        239              253           239           238             257           <215             25&
                                                       ..j            X                              X
        N/A              N/A           N/A           M et         Not Met                        Not Met
   Source: DHS OIG based on USCG providotd dald.


   Federal regulat ions also require operators or owners of vessels used for recreational
   purposes to file a boating accident report when a person dies or disappears from the
   vessel under circumstances that indicate death or injury, or a person is injured and


   1
    A designation of " N/ A• denotes the USCG reported no metric information was available for that year or
   the official t arget for that melric had not been set for thal year. In some cases, this information is
   different t han what the USCG had previously reported for those years.

www.olg.dhs.gov                                       14                                             OIG-13-122
                                    OFFICE OF INSPBCJ'OR GENERAL
                                       Department uf"Ht>mcland Security


     requires medi ca l treat ment beyond first aid. The USCG uses deaths and Injuries as a
     measure of marine safety for the recreational boating segment of t he U.S. maritime
     community, and a five-year average of these as an indicator of long-t erm performan ce
     t rends. The USCG reported that it met its target for t his measure in FY 2012 .

                                               Marine Safety
                                   Performance Measure- Five-Year Average
                                   Re(reational Boating Deaths and Injuries

       FY 2.007       FY 2008         FY 2009        FY 2010     FY 2011       FYZ012   FY 2012
        Actual         Ad ual          A(tual        Actual       Actual        Tarpt   Actual
        4,249          4,070           4,038          3,959       3.904        <3,972    3.792
                                                       ..:          ~                      '/•
        N/ A          N/A            N/A              Met          Met                   Met
    Source: DHS OIG based o n USCG-prov1dcd dat" .

     In FY 2012, the USCG met the performan ce measure for the five-yea r ave rage number of
     commercial and recrea tional deaths and injuries.

                                                Marine Safety
                          Perfo rm ance Measune- Ave-Year Average Number of
                               Co mmercial and R~>cneational Deaths and Injuries
       FY 2007        FY 2008        FY2009          FY 2010     FY 20 11      FY2012   FY 2012
        Actual         Actual        Actual           Actual      Adual        Tarpt    Actual
         N/A           N/A             N/A            N/A         4,567        <4,642    ~.473
                                                                    ~                      v'
        N/ A           N/A           N/ A             N/A          Met                   Met
    Source: OilS OIG based on USCG-prov1ded d~ta .

    Marine Environmental Protection

    Th e marine environment al protection mission focuses on minimizing oil and hazardous
    substance effects on human health, the environment, and the m arine transportation
    system. The USCG regulates the handling of o il, hazardous substances, and other
    shipboard wastes to prevent their discharge Into U.S. and intern ational wat erways, stop
    unauthorized ocean dumping, reduce ship-based air emissions, and avert the
    int roduct ion of invasive species. The USCG is the lead Federal agency for direct ing t he
    removal and mitigation of oil spills from the wate rs and adjoining shorelines of t he
    coastal zone.




ww w. oig.ch~.e,o v                                    15                                  OIG 13·122
                                OFFICE OF INSPECTOR GENERAL
                                    Departrnento f Homeland Security


    Resource Hours: Marine environme ntal protection resource hours total ed 3,091 in FY
    2012. This represents a decrease of 34 percent from FY 2011. These resource hours are
    typi ca l of the hours for this mission in FYs 2007-2009, prior to the Deepwat er Horizon
    Incident {British Petroleum oil spill in 2010).



                       Marine Environmental Protection Resource Hours
              35,000

              30,000
      ..."'
      :J
      0       25,000
     %:

      ..
     Cll
      u
      ::1
      0
              20,000

              15,000
      XI
     Cl:
              10,000

               5,000

                  0
                         .."'
                         ~
                         !!.
                         .,5'
                                                Fiscal Year
   Source: DHS OIG based on USCG-provided dal~. (•No baseline seL}

   Performance Measures and Results: Federal regulat ion requ ires vessel or facility
   ope rators to report the discharge of any hazardous substance t hat eq uals or excee ds
   repo rtable quantities, and require s t he reporting of any discharge of oil o r oil products
   t hat cause a sheen, discoloration, sludge, or emulsion on or below the surface of any
   navigable waterway of the United States . The USCG uses the number of chemical
   discharge incidents and the number of oil spills greater than 100 gallons as proxy
   indicators of marine environmental protection, and normalizes five-year averages of
   these incidents as indicators of long-term trends. In FY 2012, the USCG reported that it
   met the target for the average number of chemical discharge incidents in t he maritime
   environment.




www.oig.dhs.gov                                    16                                      OIG 13-122
                                OFFJCF. OF INSPECTOR GENERAL
                                    Department of Homeland Security


                              Marine Environmental Protection
      Performance Measure- Average Number of Chemical Discharge Incidents In the Maritime
                                       Environment
     FY 2007       FY 2008        FY 2009          FY 2010   FY 2011    FY2012       FY 2012
     Actual        Actual          Actual           Actual   Actual      Ta11et       Actual
       26 .0         20.5           19.1            18.2      15.2       <18.4         14.2
                                     ..;             ..;       .,.·                     v
                                                                                            I



       N/A           N/A            Met             Met       Met                      Met
   Source: OHS OIG based on USCG provided d.lta.

   USCG also reported that it met t he target for the average number of oil spills in the
   marit ime environment.

                      Marine Environmental Protection Performance Measure-
                      Average Number of Oil Spills in the Maritime Environment
     FY 2007       FY ZOOS        FY 2009          FY 2010   FY2011     FY 2012      FY 2012
      Actual       Actual          Actual           Actual   Actual      Terset       Actual
       13.9          13.1          12.1             11.5      10.7       <11 .4        10.5
                                                                                        ~
                                      I
                       I
                       ~             v                .J       .J
       N/A            Met           Met             Met       Met                      Met
   Sourer: DIIS OIG based en USCG-prOVIded data.

   Search and Rescue

   USCG strives to minimize lives lo st, injury, and property loss or damage, by rendering aid
   t o those in distress in the maritim e environment and elsewhere as called upon. The
   search and rescue mission is accomplished through resource readines$, distress
   monitoring and communication, search plann ing, on-scene operation s, and domestic
   and International partnerships.

   Resource Hours: Search and rescue is a demand-driven mission. The requirem ents for
   search and rescue missions increase or decrease relative to the number of people
   requiring t he USCG's assistan ce. Resource ho urs in FY 2012 tota led 58,770, an increase
   of approximat ely 5 percent f rom FY 2011.




www.olg.dhs.gov                                      17                                 OtG 1.3 122
                              ~
                              V OFFTCE OF INSPECTOR GRNF.RAL
                                             Oep11rtment of Homeland Security



                                             Search and Rescue Resource Hours
                    90,000

       c
       :::J
                    80.00()
       0            70,000
      :I:

       ..
       ell
       u
       :::J
       0
                    60,000
                    .so.ooo
                    40,000
       ~
      a:            :10,000
                    20,000
                    10,000
                         0
                                             ,....,
                                  "'
                                  "'"''2.    8....
                                      5'
                                      :'>
                                                          Fiscal Year

    Source: DHS OIG b•,ed on USCG-provided data.

    Performance Measures and Results: The FY 2.012. target for percentage of people in
    Imminent danger saved in the maritime environment was not met. In FY 2012, the
    USCG saved 3,560 lives in 19,790 cases. This total excluded outlier cases w ith more than
    10 lives at risk. N umerous variables affe-c t the final percent age of people saved from
    imminent danger. Weather conditions, water temperature, and distance to reported
    position of distress impact are a few examples of factors that ultimately impact
    individual case outcomes, but t here Is no single factor to explain the fluctuations
    occurring on an aggregate leveL The USCG stated that it will continue to ana lyze search
    and rescue data to determine potentia l causes for variances and contributing factors .

                                     Search and Rescue
      Performance Measure- Percentage of People in Imminent Danger Saved in the M aritime
                                       Environment
     FY 2007                  FY Z008       FY 2009     FY 2010    FY 2011      FYZOU   FY 21012
      Actual                  Actual        Actual      Actual      Actual      Tarpt   AciiMI
      76.6%                   76.8%         77.3%       74.4%       77.2%       100%     77.3%
              ..:               -.:               -.!     X             X                  X
       Met           Met            Met          Hot Met           Not Met              Not Met
   Snurce: OHS OIG based on IJSCG-prov!ded data.

   Th e FY 2012 target for percentage of time t hat rescue assets are on-sce ne within two
   hours was not met. However, overall performance is in line with the USCG's

www.olp,.dhs.gov                                          18                               OIG-13 122
                                OI"FlCF. OF INSPECTOR G.KXF.RAL
                                    Department of Homeland Security


expecta tion s based on placement of resources and proximity t o shore of the majority of
sea rch and rescue incidents. This measure has been adjusted t o exclude cases in which
an operationa l decision was mad e to delay a respo nse.

                                            Search and Restue
   Performance Measure- Percentage of Time Rescue Assets Are On-Scene Wlt nln 2 Hours

  FY 2007          FY 2008        FY 2009           FY 2010     FY 2011   FY2012      FYZOU
  Actual            Actual         Actual           Actual       Actual   Tarpt       Actull
                                                                           1~
   94.3%            93.3%          94.0%            93.3%       93.1%                 93.5%
     ..:               v•             ,;              .j          X                      X
    M et             Met            Met              Met        Not Met              Not Met
Sourc~:    OHS OIG ba>ed on USCG-providC'd d;,ta.


Aids-t o-Navigation

The USCG establishes, maintains, and operates more than 49,000 buoys and beacons
th at comprise the U.S. Visual Aids to Navigation System. The purpose of the system is to
mit igate t ransit risks by reducing th e potential f or collisions, allusions, and groundings.

Resource Hours: FY 2012 resource hours totaled 97,960, a decrease of approximat ely
0.9 percent f rom FY 2011. This is an approximately 13 percent d ecrease f rom the
baseline level.




                                                      19                                 OIG- 13 122
                                              OFFICF: OF INSPECTOR GENERAL
                                                Department ofHomdand St:CUJity



                                                     Aid s-to -Navigation Resource Hours
                    120,000

                    100.000

       .."'
       ::>
       0
                    80,000

      ::J:
                    &0,000
       ..
       Cll
       u

       ..
       ::>
       0
       Cll
      co:
                     40,000

                     20,000

                         0
                                       .,"'     .,
                                       .,
                                       ~
                                                0
                                                ...,
                                                0

                                       .
                                       5
                                                               Fiscal Year

   Source: DHS OIG l>ased on USCG- provided d~ta.

   Performance Measures and Results: The USCG reported that it met its FV 2012 target
   for the availability of maritime navigation aids for t he sixth consecutive year.

                                                 Aid s-to-Navigation
                              Performance Measure- Availability of Maritime Navigati on Aids

     FY 2007                  FY 2008          FY2009       FY 20 10     FY2011       FY 201Z     FY2012
     Actual                    Actual          Actual        Act ual         Actual   Tilll'let   Actual
      98.0%                    98.3%           98.0%         98.5%           98.5%    97.5%       98 .3%
              'I'                ..j                'I '        ~              v'                   ..,j
       Met                      Met             Me l          M et            Met                  MP.t
   Source: DHS OIG based on USCG provided d~ta.

   In FV 2012, the USCG reported that it met its target for the average number of
   navigational accidents. This is the second time t his measure was met in the past six
   ye ars.




www.olg.dhs.gov                                                20                                   OIG-13-122
                               •            OFFICE OF INSPECTOR GENERAL
                                   «.., ~     Department ofH omel a11d Security


                                                       AIds-to-Navigation
                             Performance Measure - Average Number of Navigational Accidents

     FY 2007                   FY 2008       FY 2009        FY 2010         FY 2011        FY 2012   FY 2012
      Actual                    Actual        Actual         Actual          Actual         Taraet   Actual
                 1,823          1.857         1,878           1,878          1,945          Sl,939   1,932
                                                                                I
             X                     X           X               X              '1/                      ·~
     Not Met                  Not Met       Not Met        Not Met           Met                      Met
    Source: OHS OIG bBsed on USCG-provlded data.

    Ice Operations

   Ice OperCJt ions consist of Polar lcebreaking, lnterniltionallce Patrol and Dom est ic
   lcebreaking. This mission supports winter commerce and prevents and responds to ice
   that causes flooding. On the Great Lakes, the USCG partners closely with Canada to
   execute these responsibilities.

   Resource Hours: In FY 2012, resource hours totaled 7,528, a decrease of approximately
   30 percent from FY 2011 and approximately 37 percent lower than the baseline level.


                                                  Ice Operations Resource Hours
                   14,000


       "':l...
                  12,000


       .....
        0
       :I:        10,000
       u
       :l
                   8,000

       .."'
       0

       a:          6,000

                   4,000

                   2,000

                         0
                                    "'"'~
                                    ~




                                    ..=>
                                               "'
                                              8....       ~           ~
                                                                      0

                                                                      "'
                                                               Fiscal Year
                                                                                     -"'
                                                                                     0
                                                                                     0




   Soule<: OHS OIG based on USCG·pro.ided d.lt.>.




www.olg.dhs.gov                                                21                                      OIG-13-122
                                0.1-'HCF. OF INSPECTOR GENERAL
                                   Dcpanmcnt of Homeland Securily

    Performance Measures and Results: The USCG reported that it met its FY 2012 target
    for the number of days critical waterways are closed to commerce due to ice. Favorable
    environmental conditions, continu ed partnership with the Canadian Coa st Guard, and
    effective employment of domestic icebrcaking assets contributed to achieving the
    performance target.

                                      Ice Operations
     Performance Measure- Number of Days Critical Waterways Are Closed to Commerce Due to
                                             Ice
      f¥2007        FY 2008      fY 2009       FY2010      FY2011   FYZOlZ       FY 2012
       Actual       Actual        Actual        Actual     Actual   Terpt         Actual
                                                                    2avg&8
          0            0             0             6         0       severe         0
          'I'          'I'
                                    "1.           X          -~                     ,;
        Met           Met           Met          Not Met    Mel                    Met
    Source: DHS OIG based on USCG prov1ded d•L•.




www.u i~. dhs.gov                                 22                                OIG-13-122
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix D
   Homeland Security Missions

   The FY 2012 homeland security mission resource hours totaled 351,567, a decrease of
   approximately 1 percent from FY 2011. Between FY 2007 and FY 2012, total resource
   hours for homeland security mi ssions were the highest in FY 2007. However, the FY
   2012 1evel remains approxim ately 89 percent above baseline levels, as depicted in the
   following graph.


                                     Homeland Security Resource Hours
              500.000
              450,000
              400,000

      -
      %
       ....
       :I
       0
              350,000
              300,000
      ...
       ~
              250,000

      ...,
      :I
       0

      a::
              200,000
              150,000
              100,000
               50,000
                   0

                         [:;·       "'....
                                    0
                                    0

                         ,.
                                                   Fiscal Year
   Sovrce: DHS OIG t>a~~d on USCG-provided data.

   In FY 2012, the USCG reported that it met or exceeded 2 of 11 summary performance
   measures for its 5 homeland security missions, compared with meeting 5 of 11 summary
   performance measures in FY 2011. The resource hours and performance measures and
   results for each homeland security m ission are sum marized below.

   Ports, Waterways, and Coastal Security

   The ports, waterways, and coastal security mission aims to deny terrorists the use and
   exploitation of the maritime domain and marine transportation system as a means for
   CJttacks on U.S. territory, population centers, vessels, and maritime critical infrastructure
   and key resources. This mission includes preparedness, pl anning and exercises,


www.oig.dhs.gov                                    23                                     OIG-B-122
                                 OFFICE OF INSPECTOR GENERAL
                                    Oepar1mt:nt of Homeland Security


   antiterrorism and counterterrorism activities, and initial recovery efforts if attacks
   occur.

   Resource Hours: In FY 2012, resou rce hours for ports, waterways, and coastal security
   totaled 150,699, which is a decrease of 3.4 percent from FY 2011.


                        Ports, Waterways, and Coastal Security Resource Hours
              2SO,OOO

      .....
      ::J
              200,000
      0
      J:

      ..e
      ::J
              lSO,OOO

      .,0
      Gl
              100,000
      Ill:

              50,000


                   0
                          ..""
                           ~

                           ~
                                    g"'
                                     ....       ~
                                                             .....
                                                             8
                          ..
                          :>                                 "'
                                                    Fiscal Year
   Source: DHS O IG based on USCG·provided dat a.


   Performan ce Measures and Results: USCG reported that it met one of its six FY 2012
   targets for ports, waterways, and coastal security.

   The revised maritime security risk measures are risk-based outcome measures that
   begin with an assessment of likely high -consequence maritime terrorist attack
   scenarios. Threat, vulnerability, and conseq uence levels are estimated for each
   scenario, which generates a proxy (index) value of "raw risk" that exists in the maritime
   domain. NeJCt, the USCG interventions (security and response operations, regime and
   awareness activities) for the fiscal year are scored against the scenarios with regard to
   the decreases in threat, vulnerability, and consequence that each has been estimated to
   have afforded. The resulting measures are proxy measures of performance.

   As depicted below, the USCG reported that it did not meet its FY 2012 target for the
   percent reduction of all maritime security risk subject to USCG influence.




www.olg.dhs.gov                                        24                                   OIG-13·122
                     ~
                     V OFFICE OF l~SPF.CTOR GE:'\ERAL
                                     Department nf Homeland Security


                              Ports, Waterways, and Coastal Security
        Performance Measure - Percent Reduction of All Maritime Security Risk Subject to USCG
                                            Influence

      FY2007         FY 2008        FY 2009          FY 2010    FY 2011   FY 2012     FY101Z
       Actual        Actual         Actual           Actual     Actual    Tarpt        Aaual
         N/A           N/A            N/A              N/A        44       44%          36%
          ..f           ..J
                                       . I
                                       •                ..;        I
                                                                  ·~                     X
        Met            Met            Met             M!!t       Met                  Not Met
    Source: DHS OIG based 011 USCG p rovoded data.

    USCG missed it s FY 2012 target for percent reduction of all maritime security risk
    resulting from USCG consequence m anagement. The deviation from the target was
    slight and did not affect overall program performance.

                            Ports, Waterw ays, and Coastal Security
      Performance Measure- Percent Reduction of Mari time Security Risk Resu lting From USCG
                                  Consequence Management
      FY 2007       FY 2008        FY 2009           FY 2010    FY 2011   FV 2012     FY101Z
       Actual        Actual         Actual            Act ual   Actual    Tarpt        Actual
        N/A           N/A            N/A              N/A         4%        3%          2%
                                       'l•
         --i            .J                              .J         •                     X
                                                                  'l
        Met           Met            Me t             Met        Met                  Not~t
    Sourc~: DHS OIG ba~ed on USCG -provodcd data .


    The USCG did not meet its target for the percent reduction of maritime security risk
    resulting from USCG effort s to prevent a terrorist f rom entering the United States via
    maritim e means. A=rding to the USCG, failing to meet the performan ce target and
    the other targets in this category is attributable to several factors, including reduced
    <Jssessment of the effectiveness of the application of international and domestic
    statutes, regulations, and agreements in detecting and defeating t errorist scenarios;
    red uction in dedicated operating hours; and reduced capability and capacity of
    deployable specialized forces.




www.Oif,.dhs.ge•J                                      25                                OIG-13-122
                       •              OFFICE OF L"'lSPF.CTOR GE'IIERAL
                           ~~             n;:partmcnt of Homeland Security


                                Ports, Waterways, and Coastal Security
      Performance Measure- Pe rcent Reduction of Maritim e Security Risk Resulting From USCG
          Efforts To Prevent a Terrorist From Entering t he United States Via Maritime Means

     FY 2007           FY 2008          FY 2009          FY 20 10   FY2011    FV 201Z   FV Z01Z
      Actual           Actual            Act ual         Actual     Actual    Tll'let   Adull
       N/A                 N/A            N/11             N/A       43%       52%       349<·
        ..•                 ...•                            -J
       Met                 Met             "
                                          Met
   Source: OHS OIG basec on USCG prOVIded data.
                                                          Met
                                                                      X

                                                                    Not Met
                                                                                          X

                                                                                        Not Met


   USCG missed its target for the percent reduction of maritime security risk resu lting from
   USCG efforts to prevent a w~apon of mass destruction from entering the United States
   via maritime mea ns by 5 percentage points. According to t he USCG, failing to meet the
   performance target is primarily attributab le to a reduced overall assessment of the
   capab ility of regime activities to in terdict a weapon of mass destruction transfer, and
   reduced interdiction capability and capacit y of the steady state activit ies and specia l
   teams.

                              Ports, Waterways, and Coastal Security
     Performance Measure- Percent Reduction of Maritime Security Risk Resulting From USCG
       Efforts To Prevent a Weapon of Mass Destruction From Entering the United States Via
                                        Maritime Means

     FV 2007           FV2008           FV 2009          FV2010     FV2011    FY 20U    FV:IOU
      Actual           Actuol            Actual          Actual     Actual    Tilrnt    Aclulll
       N/11                N/A            N/A             N/A        28%       29')(,    24%
        ., (                  •             •              vI         X                   X
       Met
                            'I
                           Met
                                           "
                                          Met             Met       Not Met             Not Met
   Sovr,c:     DHS OIG b•>ed on    USCG-prov1ded data.

   USCG met its FY 2012 target for the ~nnual Maritime Transportation Security Act (MTSA)
   facility compliance rat e with transportation worker identif ication credential regulations.




www.olg.dhs.gov                                            26                             OIG·13-122
                                  OFFICF. OF INSPECTOR GENF.RAL
                                     Dcpanmcnt of llomt:land Securiry

                            Ports, Waterways, and Coastal Security
    Performance Measure- Annual Maritime Transportation Security Act Facility Compliance Rate
                With Transportation Worker Identification Credential Regulations


     FY 2007         FY 2008        FY 2009          FY 2010   FY 2011   FY 2012     FY 2012
      AChJa l         Actual         Actual          Ar.tu~l   Actual    T1r1et       Actual
       N/A             N/A            N/A             100%      99%       99%          99%
                                                       -v        ..j                     "i•

       N/A             NjA            N/ A            Met       Met                    Met
   Sautee:   DHS OIG based on USCG provid(!d data.

   USCG also missed its t arget for t he second year for t he measure now call ed "Secu rity
   Compliance Rate for High Risk Maritime Facilities." It was previously t itled "Perce nt of
   Maritime Facilities in Compliance with Security Regulations."

                           Ports, Waterw ays, and Coastal Security
         Performance Measure- Security Compliance Rate for High Risk Maritime Facilities


     FY 2007         FY 2008        FV 2009          FY 2010   FV 2011   FY 2012     FY2012
      Actual          ,\ctual        Actual          Actual    Actual    Tarpt        Adull
       N/A             N/A            N/A             N/A      99.9%      100%        98.7%
                                                                 X                       IC
       N/A           N/A           N/A                N/A      Not Met               Not Met
   Source: DHS OIG based on VSCG·provoded data.

   Drug Interdiction

   USCG' s drug interdiction efforts support national strategies to disrupt th e market for
   Illega l drugs and prevent transnation al threats from reaching the United States. The
   USCG is the lead Federal agency for maritime interdiction and shares the lead for drug
   interdiction in the territorial seas of the United States with U.S. Customs and Border
   Protection. The USCG coordinates with its interagency partners, includi ng the
   Department of Defense, Department of Justice, Department of State, and other
   components within DHS, to deter Illicit drug trafficking.

   Resource Hours: FY 2012 resource hours totaled 85,089, an i ncrease of approximat ely
   16 percent from FY 2011, but about 31 percent below baseline levels.




www.olg.dhs.gov                                        27                                OIG· lJ 122
                          (~
                          ~         OFFICE OF INSPECTOR GENERAL
                            ·-~       Department v f Homel and Security



                                          Drug Interdiction Resource Hours
                140.000

                120,000
      ~
      :s
      0         100,000
      :r
      8         80,000

      .....
      ~

      ::s
      0         60,000

      ""        40,000

                 20,000

                     0
                              ."'     ..,         ....           ....         ....
                              ~

                              !!.
                                      0
                                      ....
                                      0           8              0
                                                                 0            ....
                                                                              0

                              :;·                 "'             "'           0


                              "                             Fiscal Year

    Source: DHS OJG based on USCG provided d a ta.

   Performance Measures and Results: The USCG uses the interagency Consolidated
   Counter Drug Database as its main source for tracking cocaine movement estimates.
   The one performance measure related to drug interdiction, removal rate for cocaine
   from noncommercial vessels in t he maritime transit zone, was not met in FY 2012.
   According to t he USCG, the reasons for not meeting this t arget can be attributed t o
   reduced resource ava ilabil ity and assets, including aging of USCG ships, boats, and
   aircraft.

                                               Drug Interdiction
          Performance Measure- Removal Rate for Cocaine From Noncommercial Vessels in the
                                     Maritime Transit Zone
     FY 2007              FY 2008   FY 2009          FY 2010            FY 2011      FY 2012   FY2012
      Actual              Actual     Actua l         Actual             Actual       Ta111et   Actulll
          N/A              N/A       15.09(.             13.5%          11.6%        16.5%      t3.4%
                                       X                  X               X                      X
       N/11          N/A        Not Met         Not Met                 Not Met                Not Met
   Source: OHS OlG based on USCG·prov•ded data.




www.olg.dhs.gov                                           28                                     OIG-13·122
                         • ..< ,
                         ~
                                    ~. :   OFFICE O.F INSPECTOR GEN£RAJ.
                                             Department of Homeland Security


    Migrant Interdiction

    USCG migrant interdiction policy and operations are designed to provide an effective
    law enforcement presence at sea and achieve t hree main objectives: (1) deter
    undocum ented migrants and transnational human smugglers from using maritime
    routes to enter the United States, (2) det ect and interdict undocumented migrants an d
    human smugglers far from the U.S. bord er, and (3) expand USCG participation in multi-
    agency and bi -national border security initiatives. The USCG leads the interdiction
    mission on the high seas, and it partners wi th U.S. Customs and Border Protection and
    U.S. Immigration and Customs Enforcement for shoreside interdiction operations.

   Resource Hours: M igrant interdiction resource hours remain approximately 133
   percent above baseline levels. In FY 2012, reso urce hours totaled 69,018, a decrease of
   approximately 4.4 percent from FY 2011.



                                            Migrant Interdiction Resource Hours
               120,000


       .....
        ~
               100,000

       0       80,000
       ::t:
       Cll
       ...u
        ~
               60,000

       ..
       0
       "'       40,000
       "'      20,000

                    0

                               i
                               ~-
                                                         Fiscal Year

    Source: DHS OIG based on uSCG-provided data.

   Performance M easures and Results: According to the USCG, the number of
   undocumented migrants attempting to enter the United States increased 17 percent in
   2012 but remained at less than half the average of the preceding decade. This is due in
   part t o a slumping U.S. economy, successful prosecut ion of smugglers, effective bilateral
   cooperation, and use of biometrics. The USCG reported that it met one of its two
   performance measures related to migrant interdiction in FY 2012. Although th e target
   for percentage of undocum ented migran ts who attempt to enter the United States via

www.oig.dhs.gov                                          29                             OIG-13 ·122
                                OF.FICF: OF INSPJ::CTOH GENERAL
                                    Department of Homt:land Sccuri ty


    maritime routes that are interdicted w as not met, the actual result of 73 percent was a
    slight improvement over 72.8 percent in FY 2011.

                                     Migrant Interdiction
     Performance Measure - Percentage of Undocumented Migrants Who Attempt To Enter the
                    United States Via Maritime Routes That Are Interdicted


     FY 2007       FY 2008        FY 2009          FY 2010   FY 2011     FYZ012        PI lOU
      Act ual       Actual         Actual          Actual    Actual      Taraet        ~
      65.2%         62 .7%         84.4%            64.5%    72.8%        73.9%        73.0%
         X             X             'I'              X        X                          X
     Not Met       Not Met          Met            Not Met   Not Met                  Not Met
   Source: OHS OIG ba>ed on USCG-prOVJdrd data.

   As shown below, the USCG exceeded its target for the percentage of undocumented
   m igrants who attempt to enter the United States via marit ime routes that are
   interdicted by the Coast Guard.

                                      Migrant Interdict ion
     Performance Measure - Percentage of Undocumented Migrants Who Attempt To Enter t he
            United States Via Maritime Routes That Are Interdicted by the Coast Guard


     FY 2007       FY 2008        FY 2009          FY 2010   FY 2011     FV 2012      FY 2012
     Actual         Actual        Actual           Actual    Actual       Taraet       Actual
      42.1%         46.9%          37.5%           44.7%     51.7%        43.0%        52.8%
                      X              X               ..J       ..J                        ..J
        N/A         Not Met      Not Met            Met       Met                       Met
   .Source: OHS OIG based on USCC-prov1ded data.

   Defense Readiness

   The USCG mai ntains a level of readiness and training that allows for immediate
   integration wit h Department of Defense forces, for peacetime operations or during
   times of war. This supports U.S. nation al interests abroad, as well as fa cilitates DoD
   support to DHS for the integration o f homel and defense and homeland secu rity.

   Resource Hours: In FY 2012, resource hours for defense readiness totaled 34,644 and
   were still well above the baseline, although resource hours decreased by 16.4 percent
   from FV 2011 to FV 2012.



www.oig.dh~.gov                                      30                                   OIC· l3· 122
                       •           OFFICE OF INSPF.CTOR GENERAL
                           ~··"'     J)epanmcnl of H omeland Security



                                             Defense Readiness Hours
              60,000

              50,000
       ....
       "'
       :::>
              40,000

       ....
       0
      ::J:
       u      30,000

       ..
       :::>
       0

      Ill:
              20,000

              10,000

                  0
                                    ...,        N             N
                            'l                                            N
                                                                          ,...
                                    8....       ~
                                                              0           0
                                                              0
                             ~
                             :;·                              "'          0

                            "'                        Fiscal Year

   Source: DHS OIG based on USCG-provlded data.

   Performance Measures and Results: The USCG did not meet its overall target of 35.9
   percent defense readiness for the year. According to the USCG, the declining readiness
   of its high-endurance cutter fleet continues to pose significant challenges to mission
   perform;mce. High-endurance cutter readiness is being addressed by the USCG's Fleet
   Recapit alization Project.

                                     Defense Readiness
    Performance Measure- Defense Readiness Assessment of All USCG High-Endurance Cutters,
                            Patrol Boats, and Port Security Units
     FY 2007           FY 2008     FY 2009          FY 2010        FY 2011       FY ZOlZ   FYZ012
      Actual           Act ual      Actual           Actual        Actual        Tarset    Actual
        N/A                N/A       N/A             24.1%          25 .1%       35.9%     27.2%
                                                                      X                      )C

        N/A                N/A       N/A             N/A           Not Met                 Nat Met
    Source: DHS OIG based on lJSCG·prov•ded data .

   Other Law Enforcement

   The other law enforcement mission orchestrates the enforcement of regulations on
   foreign fishing vessels. This enforcem ent takes two forms: the first is th e deterrence ,
   detection, and interdiction of illegal incursions into the u.s. exclusive economic zone by


www.olg.dhs.gov                                       31                                     OIG-13·122
                                OFFICE OF TNSPECfOR GENERAL
                                       Department of llomeland Security


   foreign fishing vessels. 2 The protection of t he U.S. eKclusive economic zone from
   incursions by foreign fishing vessels contribut es to a fundamental USCG maritime
   securit y objective to protect our Nation's renewable nat ural resources. The second part
   ofthe other law enforcement mission is t o ensure compliance with internation al
   agreem ents for t he management of living marine resources. This is accomplished
   primarily through enforcement of conservation and management measures creat ed by
   Regiona l Fishery M anagement Organ izations.

   Resource Hours: In FY 2012, resource hours for the other law enforcem ent mission
   totaled 12,117, a decrease of3.7 percent from FY 2011.


                              Other Law Enforcement Resource Hours
               14,000

               12,000
      ..."'
      :I
      0        10,000
      ..,
      X
                8,000
      ~
      :I

      ..,"'0    6,000
      a::
                4,000

                2,000

                   0
                        Z'         "'....00    8"'         "'00       "'....00    ~
                                                                                  ....
                                                                                  ....
                                                                                             "'.....0
                        i!.
                        ..
                        s·
                                                00

                                                Fiscal Year
                                                           "'                                "'

   Source: OtiS OIG based on USCG-provided data.

   Performance Measures and Results: Th e USCG uses t he number of detected incursions
   into the U.S. exclusive eco nomic zone by foreign fi shing vessels as a measure of its
   performance. In FY 2012, there were 160 detected incursions of fo reign fi shing vessels
   into the U.S. exclusive economic zone, which did not meet the performance target of
   fewer than 140 incursions. According to the USCG, this is likely a resu lt o f Increased
   USCG and partner agency patrol efforts in the area.



   ' The exclusive economic zone is the zone where the Umted States and other coastal nation; hJVe
   jurisdiction over economic and resource managemenl. The exclusive economic zone includes waters 3 to
   200 miles offshore (or 9 to 200 miles offshore in western Florida and in Texas).

www.oig.dhs.gov                                      32                                                 OIG ·13-122
                                OH'!CE OF INSPECTOR GEN.RRAL
                                   Department of Homeland Security

                                          Other law Enforcement
     Performance Measure- Number of Detected Incursions of Foreign Fishing Vessels Violating
                                       U.S. Waters
     FY 2007       FV 2008        FY 2009          FY 2.010   FY 2011   FY 2012     FY:ZOU
      Actual        Ach1al        Actual           Actu~l     Actual    T•raet       AI:MI
       126            81            112              82           122    <140         160
        ..J            ..J           .J               '           ..J                  X
       Met            Met           Met
                                                      "
                                                     Met       Met                  Not Mit
   Sourrl': DHS OIG based on USCG-provtdro data.




www.olg.dhs.gov                                      33                                OIG-13-122
                                      OFFICE OF INSPECTOR GEl\"ERAI.
                                              Department of Homeland Se~.:urity


    Appendix E
    FY 2012 Performance Measure Summary
                                                                                                                                     Not
              Mission                                                      Measure                                         Met       Met
     Non-Homeland SKUrlty Minions
      l iving Marine Resoutctl      Fishing Regulation Comellilnce Rate                                                    X
                                    5-Yr A'letag~ Number of Commercial ~nd Recreational Deaths and Injuries                X
                                    5-Yr Av~rage Number of Commert:ial Mafiner .Deaths ~nd lnjuries                        X
           Marine Safety
                                   _S-Vr Average Number    or C~mmcrcial Pa~senger Deaths tt.~d I':"Jurfes                           2._
                                   ) 5-Yr AvetagP. Nu!Y'ber of Recrt=tttional Roati~g Deaths and Injuries                  X
                                     Avt:>rage NumbN of Chemical Di:.ch.arge lnc:ide:nts in the Maritimtt
       Marine Environmental                                                                                                X
                                    fnvironme-11t
            Prorection
                                    A~rage Number of Oil Sptls In the ~ritime Environment                                  X
                                                                                                                                                  -
                                                                                                                                         X
         Search and Re1cue          PetCP.nngc of People it1 lmmiMnt !>anger Saved in the Maritime Environment
                                   --'--'-·                            .
                                    Percentage or Tim~ Rcsc.ul! Assets Are On-Scene Wjthin 2 Hours                                       X
                                    Av~ilabilitv of Maritime Nt~vlsation Aids                                              X
        Aids-to-Navigation         1----'-                             -      -

          lte Oper.atlons
                                    Average Number of N ~vlgatlona l Accidents
                                    Nv-nbE>f of Day~ C..itlcal Waterways Ar@. f.lnscd 10 Commerce Oue lo lcP.
                                                                                                                           X
                                                                                                                           X
                                                                                                                                 '
                                                                                                                                     -
    Total Non-Homeland Security Performance Meas.ures                                                                      9             3
    Home.land Security Mission s

                                                                                                                                         X
                                    Percent Reduction of All M•ritime Security Risk SubjeCt to USCG Influence
                                    Percent Reduction ol Maritime Security Risk Resulting From USCG
                                                                                                                                         -
                                                                                                                                         X
                                   ·~.
                                     Consequence Manageft'Mlnt
                                    Percent Reductior. of Maritime Security Risk Resulting From USCG Etforts To                          X
       Ports, Waterways. and        Prevent a 1 eanrist From Entering the United States. Via Marhime Me<~rlS
          Coastal Security          Percenl Redo.Jction of M arltlm~ Securily Risk Rasulting From USt(j f rtorts to
                                    Prevent a Weapon of M OlSS Destruction Fron1 fntering tho United States Via                  '       X
                                    Maritime Means
                                                                   -                          -·
                                     Annual MTSA F-acility Compliance Rate With lransportiltlon \Vorker
                                                                                                                                     -
                                                                                                                           X
                                    .Identification Credential R~suLi:l.tions
                                     Security CO<npllan<:<> Rate for Hich Ri>k Maritime Fa::ili!les                                      X
                                                                                                                                             -
                                                                                                                       i
                                     Removal Rate for Coca~ Frum Noncommercial Vessels In the "'•'"ime
         Drug Interdiction                                                                                                               X
                       ..          . Transit Zone
                                    Percentage of Undocumented Migrants w~.o Attempt Tn Enter the United
                                                                                                                                         X
                                   ~s Via Maritime Routes   Ttu:Jt Are Interdicted                                               i
                                                                                                                                             ..
        Migrant interdlctlon                                                                           -
                                    Pe!ceotage of Undocument~d Migrants. Who Attempt To El'\ter Lhe United                 X
                  ..                States by Maritime Routes Interdicted by ~he.USCG
                                    Defense Readiness A~sessment of All USCG High Endura'1c~ Cutters, Patrol
        De.fense Readiness                                                                                                               X
                                    Boats~ and Por~-~ecurity Units
                                    Number of OP.tP.cted Incursions of fof~i~n H.s.hing V~ssels V\olating U.S.         ;
      Othfot" Law Enforce.m~nt

    Total Homeland
                                    Waters
                               P mormance
    Total USCG Performance Musure
                                               -reo                                                                        2
                                                                                                                           11
                                                                                                                                         X

                                                                                                                                         9
                                                                                                                                         12
    Source: DHS OIG based on USCG provided data.


www.oig.dhs.gov                                               34                                                      OIG-13 122
                  ~
                  V. ·       OFFICE OF INSPEC I'OR GEJ\'ERAL
                                DepartmcntofHvmeland Security


    Appendix F
    Major Contributors to This Report

    Brooke Bebow, Director
    Stephanie Christ ian, Audit Manager
    Patricia Benson, Program Analyst
    Melissa Motley, Program Analyst
    Eric Young, Referencer




www.oig.dhs.gov                            35                   OIG-13-122
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   United States Coast Guard

   Commandant
   Assistant Commandant for Resources and Chief Financial Officer
   USCG Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  36                        OIG-13-122
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
